          U.S. Department of the Interior
              Office of Inspector General


                         Evaluation Report



       OVERSIGHT AND FOLLOW-UP ON
  AUDIT FINDINGS AND RECOMMENDATIONS,
PERTAINING TO INSULAR AREA GOVERNMENTS’
         USE OF FEDERAL FUNDING




REPORT NO. 2003-I-0011      FEBRUARY 2003
                                                                   H-IN-OIA-0017-2002

            United States Department of the Interior
                      OFFICE OF INSPECTOR GENERAL
                                   Arlington, VA 22203



                          EVALUATION REPORT
                                                                       February 28, 2003

Memorandum

To:        Deputy Assistant Secretary for Insular Affairs

From:      Elaine T. Weistock
           Director for Quality Assurance and Management Control Reviews

Subject:   Final Evaluation Report on Oversight and Follow-up on Audit Findings and
           Recommendations Pertaining to Insular Area Governments’ Use of Federal
           Funds (No. 2003-I-0011)

      This report presents the results of our evaluation of oversight and follow-up on
audit findings and recommendations that pertain to insular area governments’ use of
Federal funds. The evaluation covered insular area audit report findings that cited
monetary amounts or cost exceptions related to Department of the Interior (DOI)-funded
programs that were included in audit reports issued pursuant to the Single Audit Act. We
conducted this evaluation in response to concerns expressed by DOI officials regarding
the large number of audit findings and recommendations that remained unimplemented
and unresolved. Appendix 1 provides a discussion of the background and scope of the
evaluation.

      We found that DOI needs to promote efforts to subject funds that DOI provides to
insular area governments to Federal regulations so that DOI can ensure proper use of the
funds and resolve audit recommendations and findings pertaining to the misuse of DOI
funds. We also found that the Office of Insular Affairs (OIA) needs to improve its
processing of insular area external audit report findings that are referred to it for
resolution.

      In the December 19, 2002 response (Appendix 2) to the draft report, you concurred
with the report’s three recommendations. Based on the response and additional
information provided by OIA, we consider Recommendation 1 resolved and implemented
and Recommendations 2 and 3 resolved but not implemented (see Appendix 3).
Accordingly, Recommendations 2 and 3 will be referred to the Assistant Secretary for
Policy Management and Budget for tracking of implementation.
       The legislation, as amended, creating the Office of Inspector General requires that
we report to Congress semiannually on all audit reports issued, actions taken to
implement our audit recommendations, and recommendations that have not been
implemented.

       We appreciate the cooperation shown by OIA staff during our review. If you
have any questions regarding this report, please call me at (703) 235-1425 extension 110.




                                            2
Results of Evaluation
                    External audit report findings pertaining to insular area
Overview            governments’ use of Federal funds provided by DOI were not
                    adequately addressed. This condition occurred because most of
                    the financial assistance provided to the insular areas by DOI is not
                    subject to Federal control and because DOI has not developed
                    adequate audit follow-up procedures. We reviewed 16 report
                    findings of which 12 findings, with questioned costs of
                    $25.5 million, were not resolved because the funding was not
                    subject to regulations that govern the use of Federal financial
                    assistance. Also, 4 of the 16 findings that we reviewed (with
                    questioned costs of $1 million) had $100,000 of questioned costs
                    that had not been resolved, even though the funding was subject to
                    Federal control.

                    The OIG receives copies of external (single) audit reports from the
Processing Single   Federal Audit Clearinghouse, the organization the Office of
Audit Reports       Management and Budget designated to receive these reports from
                    Federal award recipients. After receipt, the OIG summarizes and
                    refers findings to the appropriate DOI bureau for audit follow-up
                    action. For insular area findings pertaining to DOI-funded
                    programs, the OIG usually sends reports to the Office of Insular
                    Affairs (OIA), an Office of the Secretary component that has
                    responsibility for fostering the efficiency and effectiveness of
                    insular area governments and for providing technical and financial
                    assistance to these governments. If OIA (or other bureau or office
                    to which the report has been sent) does not resolve the findings,
                    OIG refers the matter to DOI’s Management Control and Audit
                    Follow-up officials, Office of Financial Management (under the
                    Deputy Assistant Secretary for Budget and Finance). These
                    officials help resolve findings and monitor and track corrective
                    action implementation.

                    Findings in 12 of 16 external audit reports1 reviewed had not been
Entitlement-Type    resolved or monitored for corrective action implementation
Funding             because the findings pertained to the use of entitlement-type

                    1 External audit reports included in our review were conducted in accordance
                    with the Single Audit Act. We refer to these audit reports as “external” because
                    they were prepared by independent (non-DOI, Office of Inspector General)
                    auditors. Under the Single Audit Act and Office of Management and Budget
                    Circular A-133, the Federal Government established a “coordinated” approach to
                    the audit of recipients of Federal financial assistance, based on a designated
                    threshold of monetary aid. The Circular provides for independent auditors to
                    review all Federal financial assistance provided to the recipients and to prepare a
                    consolidated audit report.


                                     3
funding. The 12 sample monetary findings, with questioned costs
of $25.5 million, which were not resolved or monitored for
corrective action implementation, included the following:

•   Documentation was not maintained on expenditures of
    $23,593,062,
•   Purchases of $32,232 had not been properly authorized, and
•   Expenses of $447,172 were unallowable.

Other than sending letters to insular area government officials,
inquiring about the status of the findings, we found that OIA took
no further action to resolve these 12 findings. OIA said that it had
not followed up on these matters because the funding sources cited
in the findings were subsidies, compact funds or other types of
entitlement-type funding over which OIA had no enforcement
authority under Federal financial assistance regulations.

In our opinion, unless legislative provisions and the terms and
conditions of financial assistance are changed, there is little value
in DOI being held responsible for audit findings and
recommendations related to the misuse or inappropriate use of
Federal funds over which it has little control. Moreover, with a
backlog of about 600 external audit report findings that were
unresolved as of May 2002, most of which, we believe, are not
subject to Federal control, DOI may experience difficulty in
providing oversight to the few audit reports’ findings over which it
can exercise control. Nonetheless, we believe that OIA, as the
DOI organization responsible for “assist[ing] the islands in
developing more efficient and effective government,” should
exercise greater oversight of these findings by encouraging
resolution and monitoring corrective action implementation.2

OIA officials said that DOI was engaged in negotiations to
strengthen the Government’s control over Federal financial
assistance to the Compact states. If successful, the negotiations
should enable DOI to exercise the provisions of 43 CFR Part 12,
which provides for the imposition of sanctions for noncompliance
with the terms of Federal financial assistance.

In recognition of the prevailing limitations on DOI’s control over
insular area government use of DOI financial assistance, OIG and
DOI’s Management Control and Audit Follow-up personnel
reviewed open external audit report findings and eliminated from

2 The text in quotations was taken from OIA’s mission statement in its Annual
Performance Plan.


                4
                  DOI’s audit tracking system those findings involving funds over
                  which DOI currently has limited enforcement authority.

                  OIA has not established an effective framework for processing
Audit Follow-Up   external audit reports and report findings. Although OMB Circular
Procedures        A-50 requires Federal agencies to “maintain a complete record of
                  actions taken” with regard to audit findings and recommendations,
                  OIA did not –

                     •   Establish audit finding and recommendation tracking
                         procedures,
                     •   Adequately document its communications with insular area
                         government officials with regard to requesting report
                         responses and corrective action plans and monitoring
                         corrective action implementation,
                     •   Establish time frames for completing audit follow-up tasks,
                         or
                     •   Clearly define the roles of its audit liaison and program
                         officials with regard to their audit follow-up
                         responsibilities.

                  Four of the selected findings that we reviewed pertained to Federal
                  funding over which DOI did have authority to resolve and ensure
                  proper use, of which three findings pertained to funds provided by
                  OIA, as follows:

                     •   OIA said that it resolved one report’s findings based on
                         documentation submitted by the insular area government.
                         The findings, questioned costs of $596,151, pertained to
                         insufficient documentation on the award and selection of a
                         contractor. OIA maintained documentation to show the
                         basis for its having considered the findings resolved.

                     •   One finding was closed based on a negotiated settlement
                         related to a questioned cost of $234,194. The finding
                         pertained to the premature release of a retainer on a
                         construction project, which was not completed. In support
                         of closure, OIA provided a copy of a settlement agreement
                         between the construction project contractor and the insular
                         area government that provided for the payment of the
                         contractor’s claim. We considered this finding adequately
                         resolved, even though OIA, in our opinion, should have
                         prepared a summary to explain the resolution in terms of
                         the amount of the questioned cost.




                                5
                      •   One report remained open. OIA had communicated with
                          the insular area government regarding resolution; however,
                          OIA had taken no action to recover or offset $105,835 of
                          $205,835 of undocumented costs that the Federal
                          Government had reimbursed. OIA had determined that
                          $100,000 of questioned costs should be reinstated as
                          allowable. Prior to completion of our evaluation fieldwork,
                          OIA had not provided our staff with sufficient
                          documentation on its basis for considering the finding
                          partially resolved.

                   Our sample transactions did not include cases in which OIA
                   recovered questioned costs. However, an OIA official informed us
                   that his office has taken action to recover DOI funds that were not
                   used for their intended purpose. To illustrate this point, the OIA
                   official provided a copy of correspondence, showing that OIA
                   requested reimbursement from an insular area government for an
                   advance payment for a piece of equipment, which the insular area
                   government did not purchase. The official also provided a copy of
                   a check from the insular area government, which reimbursed the
                   U.S. Treasury for the advance.

                   External audit coordinators at all of the other Federal agencies we
Improvements       contacted said that they maintained a system or process for
Needed in Single   monitoring the resolution and tracking of the implementation of
                   single audit report findings and that they documented their
Audit Report       disposition of audit findings. We did not, however, verify that
Processing,        they maintained such systems or that the systems worked
Government-wide    effectively.

                   In the June 2002 report, “Single Audit Actions Needed to Ensure
                   That Findings Are Corrected” (No. GAO-02-705), the General
                   Accounting Office (GAO) discussed single audit report follow-up
                   at the Departments of Education, Transportation, and Housing and
                   Urban Development. GAO concluded that “each agency had
                   procedures for obtaining and distributing the audit reports to
                   appropriate officials for action. However, they often did not issue
                   the required written management decisions or have documentary
                   evidence of their evaluations of and conclusions on recipients’
                   actions to correct the audit finding. In addition, program managers
                   did not summarize and communicate information on single audit
                   results and recipient actions to correct audit findings to agency
                   management.”

                   We consider the results of GAO’s review of other Federal
                   agencies’ single audit report follow-up practices to parallel the


                                 6
                   results of our review. In general, we found that DOI officials had
                   not adequately documented the basis for their determinations that
                   audit findings had been resolved or summarized the actions taken
                   to monitor and correct audit findings.


Recommendations    We recommend that the Deputy Assistant Secretary for Insular
                   Affairs:

                      1. Support efforts to strengthen Federal controls over DOI
                         financial assistance provided to insular area governments.

                      2. In conjunction with the Deputy Assistant Secretary for
                         Budget and Finance and the OIG, develop and implement
                         procedures for monitoring (apart from Office of
                         Management and Budget Circular A-50 tracking and
                         resolution requirements) external audit findings that pertain
                         to Federal funds that are not subject to 43 CFR Part 12
                         enforcement provisions.

                      3. Develop and implement procedures for the assignment of
                         responsibility for and the processing of external audit
                         report findings to ensure that appropriate and timely actions
                         are taken and documented.

                   In the December 19, 2002, response to the draft report
OIA Response and   (Appendix 2), the Deputy Assistant Secretary for Insular Affairs
OIG Reply          concurred with the report’s three recommendations.

                   Based on the response and additional information provided by
                   OIA, we consider Recommendation 1 resolved and implemented,
                   and Recommendations 2 and 3 resolved but not implemented
                   (Appendix 3).




                                 7
8
                                                         Appendix 1
                                                Background and Scope



             Since 1931, DOI has been assigned certain responsibilities for
Background   providing economic and financial assistance to insular area
             governments, which consist of the territories: the U.S. Virgin
             Islands, American Samoa, and Guam; the Commonwealth of the
             Northern Mariana Islands; and the Freely Associated (or
             “Compact”) States: the Federated States of Micronesia, the
             Republic of the Marshall Islands, and the Republic of Palau.
             DOI’s Office of Inspector General (OIG), in particular, has been
             assigned responsibility for audit oversight of the insular areas. The
             1982 Insular Areas Act (Public Law 97-357) transferred to DOI’s
             OIG audit authority that previously was assigned to Federal
             Government Comptrollers for the four major insular areas (the
             territories and the Northern Mariana Islands). Also, under the
             Compacts of Free Association, DOI’s OIG was designated the
             Federal Government’s representative with regard to audit oversight
             of the Compact states. Although DOI has responsibility for
             maintaining Federal audit oversight and provides funds for
             purposes such as economic development and technical assistance,
             the insular area governments are largely self-governing.

             Much audit attention has been focused on deficiencies in the
             financial management practices of the insular area governments.
             In Budget Justifications and Annual Departmental Reports on
             Accountability, DOI has acknowledged the “long-standing
             financial and program management deficiencies” and “poor
             financial controls” that undermine the economic well-being of
             insular area governments. Recently, we issued a report
             “Management Challenges for Insular Area Governments, an
             Opportunity for Improvement” (Report No. 2002-I-0017) dated
             March 2002, which catalogued the deficiencies in the insular area
             governments’ financial management practices that have been
             identified by the OIG in its audit reports. Based on the report’s
             findings, the OIG, in its March 2002 semiannual report to the
             Congress, said, “The state of financial affairs in the Insular Areas
             is, in a word, disturbing.” The report recommended that the
             insular area governments implement specific corrective actions to
             improve overall financial management, enhance revenue
             collections, control expenditures, and improve general program
             operations.




                           9
                                                                Appendix 1
                                                       Background and Scope


                    In fiscal years 1997 through 2001, the OIG processed 31 insular
                    area external audit reports with monetary findings of $48.5 million
                    of DOI funds. Although these reports also contained findings
                    pertaining to funding provided by other Federal agencies, we do
                    not know the total amount of monetary findings that is attributable
                    to other Federal agencies because we do not maintain records of
                    findings pertaining to non-DOI funds.

                    Federal regulations provide for the audit of recipients of Federal
Guidance on Audit   assistance, establish remedies for the misuse of Federal financial
Follow-up           assistance, and require Federal agencies to resolve and assure the
                    implementation of audit recommendations. Specifically:

                    •   43 Code of Federal Regulations (CFR) Part 12 provides for the
                        audit of Federal financial assistance, such as the grants, loans,
                        and contracts. This Regulation also contains provisions for
                        recipients that “materially” do not comply with the terms of an
                        award of Federal financial assistance. According to the
                        Regulation, an awarding agency can impose sanctions,
                        including temporarily withholding cash payments, disallowing
                        (that is, denying the use of) funds, suspending or terminating
                        the award, or withholding further awards for noncompliance
                        with the terms of the Federal financial assistance. Also, the
                        Regulation states that any funds paid to a recipient of Federal
                        financial assistance, in excess of the amount to which the
                        recipient is entitled, constitutes a debt to the Government and
                        provides for the recovery of such funds.

                    •   The Office of Management and Budget’s (OMB) Circular
                        No. A-50, “Audit Followup,” requires Federal agencies to
                        “establish systems to assure the prompt and proper resolution
                        and implementation of audit recommendations” and requires
                        the systems to “provide for a complete record of action taken
                        on both monetary and non-monetary findings and
                        recommendations.”

                    Although OMB Circular A-50 provides for audit follow-up,
                    including resolution, corrective action, and corrective action
                    tracking of all audit findings regardless of funding source, it does
                    not authorize DOI to exercise management control over findings
                    attributable to programs funded by other Federal agencies. Also,
                    although 43 CFR Part 12 provides remedies for the misuse of


                                  10
                                                         Appendix 1
                                                Background and Scope


             Federal financial assistance, which might be identified in the
             course of an audit, the Regulation (Part 12.110 (a)(2)) does not
             apply to recipients of statutory entitlements or mandatory awards.

             The scope of our evaluation included external audit reports with
Scope of     DOI monetary findings that were issued in fiscal years 1997
             through 2001. Of 31such reports with DOI findings of
Evaluation   $48.5 million, we judgmentally selected 16 reports with findings of
             $26.5 million for review.

             We conducted our evaluation in accordance with the President’s
             Council on Integrity and Efficiency’s “Quality Standards for
             Inspections.”

               DOI Monetary Amount of External Audit Report Findings

                                                        Finding         Sample
                        Insular Area                    Amount          Amount
             American Samoa                           $2,748,455      $1,214,561
             Commonwealth of the Northern
                                                      12,597,246         830,345
             Mariana Islands
             Federated States of Micronesia              745,138         614,841
             Guam                                      5,453,333         205,835
             Palau                                     1,718,810         412,428
             U.S. Virgin Islands                         632,247               0
             Marshall Islands                         24,569,903      23,177,750
               Total                                $48,465,132      $26,455,760

             We reviewed the actions taken by responsible officials to resolve
             and track implementation of the findings. We also contacted audit
             and program personnel at the Departments of Transportation,
             Health and Human Services, Defense, and Agriculture and at the
             Federal Emergency Management Agency to discuss the manner in
             which these agencies tracked, resolved, or monitored corrective
             action implementation of findings that pertained to the use of their
             agencies’ funds.




                           11
          Appendix 2
     Agency Response




12
          Appendix 2
     Agency Response




13
14
                                                                Appendix 3
                                                 Status of Recommendations



Recommendation
   Reference          Status                         Action Required
      1          Resolved and         No further action is required.
                 implemented.
    2 and 3      Resolved, not        The recommendations will be referred to the
                 implemented.         Assistant Secretary for Policy Management and
                                      Budget for tracking of implementation.




                                 15
16
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6081
                             Caribbean Region                340-774-8300
                             Northern Pacific Region         671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
